Page 2 – Mrs. Carmen Hooker Odom

Direct Reply to HHS Action Official:

Mr. Renard Murray
Associate Regional Administrator for Medicaid
Centers for Medicare & Medicaid Services, Region IV
Sam Nunn Atlanta Federal Center
61 Forsyth Street, S.W., Suite 4T20
Atlanta, Georgia 30303-8909
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




     AUDIT OF MEDICAID
FEE-FOR-SERVICE PAYMENTS TO
LOCAL EDUCATION AGENCIES IN
  NORTH CAROLINA FOR THE
PERIOD JULY 1, 1999 THROUGH
        JUNE 30, 2000




                      MAY 2004
                     A-04-01-00005
                                  EXECUTIVE SUMMARY

OBJECTIVES

Our objectives were to determine whether (1) claims for school-based services were allowable
under Federal and State requirements, (2) payment rates were supported and reasonable, and
(3) the State share for claiming Federal funding was met.

SUMMARY OF FINDINGS

Of the 200 Medicaid claims in our statistical sample, 146 did not meet reimbursement
requirements. We estimated that local education agencies received at least $2,785,151 (Federal
share) in improper payments between July 1, 1999 and June 30, 2000 (State fiscal year 2000).

Federal laws and regulations, State regulations, or the Medicaid State plan requires:

   •   a prescription from a physician or other practitioner of the healing arts for physical and
       occupational therapy services and a referral for services to individuals with speech,
       hearing, and language disorders

   •   that services be documented and included in a child’s individualized education plan or an
       individualized family service plan (child’s plan/family plan)

   •   provision of speech-language services by or under the direction of a certified speech-
       language pathologist or an individual with similar qualifications

   •   maintenance of documentation to support services claimed and payment rates

   •   provision of public funds as State matching funds under certain conditions

   •   that payments be necessary, reasonable, and allocable to Federal awards

Of the 146 unallowable claims, 23 had more than 1 deficiency:

   •   One hundred forty-four claims did not comply with Federal and State regulations
       requiring a prescription or referral before delivery of services.

   •   Thirteen claims were not documented or insufficiently documented to support the
       services rendered.

   •   Seven claims were not allowable because the services were not rendered or did not
       qualify under Federal law.

   •   Three claims lacked a child’s plan/family plan.




                                                 i
   •   Two claims did not comply with Federal requirements that speech services be provided
       by or under the direction of a certified speech-language pathologist or an individual with
       similar qualifications.

Furthermore, payment rates for school-based services were not adequately supported.

Additionally, the local education agencies did not always meet the requirements for State
matching necessary to claim the Federal share of school-based services costs, primarily because
of errors in completing the certifications. There was a shortfall of $138,803 in the designated
State matching accounts of two local education agencies. As a result, the State claimed excess
Federal funds for the quarters involved. However, these two local education agencies had
additional expenditures that would have been eligible for use as the State’s match had the
certifications been completed accurately and timely.

Finally, the local education agencies were overpaid $281,655 for school-based services. The
initial fee-for-service payment tape the State provided to us contained improper payments such
as duplicate payments and payments for services that exceeded the State’s established service
limitations. The State recouped the overpayment and subsequently provided us a new sampling
universe.

In our opinion, these deficiencies occurred because the State did not:

   •   provide the local education agencies with sufficient guidance and oversight to bill
       Medicaid appropriately

   •   have adequate policies and procedures to support the Medicaid billing rates for school-
       based services

   •   monitor local education agencies to ensure that the State share was met and required
       certifications were submitted accurately and timely

   •   have adequate controls to prevent improper payments such as duplicate payments and
       payments for services that exceeded the State’s established service limitations

RECOMMENDATIONS

We recommend that the State:

   •   refund $2,785,151 to the Federal Government

   •   provide guidance and oversight to local education agencies so that they meet Federal and
       State reimbursement requirements




                                                ii
   •   consult with the North Carolina Medical Board to determine whether physicians should
       examine the students, review their medical records, or coordinate their medical services
       with their primary care physicians

   •   review paid claims for periods after our review to determine whether claims were
       unallowable and, if so, refund the Federal share

   •   implement policies and procedures for maintaining documentation to support the
       Medicaid billing rates for school-based services

   •   monitor local education agencies to ensure that they timely and accurately report their
       share of State matching funds

   •   implement procedures to prevent improper payments and take more timely action on the
       exception reports that identify duplicate payments and payments for services that
       exceeded the State’s established service limitations.

STATE COMMENTS

State officials generally disagreed with our findings and recommendations. The State’s written
comments and the Office of Inspector General’s (OIG) response are summarized after the
“Recommendations” section. The complete text of the State’s comments, except for the
enclosures that accompanied the response, is included in Appendix C. We excluded the
enclosures because of their length, but have forwarded a complete copy to the responsible action
official.

OIG RESPONSE

After considering the State’s comments, we continue to recommend that the State make a
financial adjustment and implement our other recommendations. Where appropriate, we
changed the report to reflect documentation the State provided.




                                               iii
                              TABLE OF CONTENTS
                                                                   Page

INTRODUCTION                                                        1

     BACKGROUND                                                     1
         Nationwide School-Based Services                           1
         North Carolina School-Based Services                       1

     OBJECTIVES, SCOPE, AND METHODOLOGY                             1
          Objectives                                                1
          Scope                                                     2
          Methodology                                               2

FINDINGS AND RECOMMENDATIONS                                        2

     DEFICIENCIES NOTED IN SAMPLED CLAIMS                           3
          Prescription or Referral Requirements Not Met             4
          Services Undocumented or Insufficiently Documented        4
          Services Not Provided or Did Not Qualify                  4
          Services Not Included in Child’s Plan/Family Plan         5
          Provider Qualifications Not Met                           5
          Estimation of the Unallowable Claims                      5

     PAYMENT RATES                                                  5

     STATE-SHARE CERTIFICATIONS                                     5

     OVERPAYMENTS TO LOCAL EDUCATION AGENCIES                       7

     RECOMMENDATIONS                                                7

     STATE COMMENTS AND OIG RESPONSE                                8
          State Comments on Sample Selection and Extrapolation     8
          OIG Response                                              8
          State Comments on Physician Prescriptions or Referrals   9
          OIG Response                                              9
          State Comments on Physician Prior Authorization           9
          OIG Response                                              9
          State Comments on Physician Services                     10
          OIG Response                                             10

APPENDICES
A - SAMPLING METHODOLOGY
B - ALLOWABILITY OF EACH SAMPLED CLAIM
C -NORTH CAROLINA DEPARTMENT OF HEALTH AND HUMAN SERVICES WRITTEN
      COMMENTS


                                          iv
                                         INTRODUCTION

BACKGROUND

Nationwide School-Based Services

Title XIX of the Social Security Act established the Medicaid program in 1965 to provide
medical care to pregnant women, children, and needy individuals who are aged, blind, or
disabled. Medicaid is a jointly funded Federal and State entitlement program administered by
the States. Section 1903(c) of the Social Security Act was amended in 1988 to allow Medicaid
coverage of health-related services for children under the Individuals with Disabilities Education
Act. The latter Act requires States to provide appropriate special education and related services
(school-based health services) to children with disabilities or special needs.

Each State outlines its Medicaid program in a State plan subject to review by the Centers for
Medicare & Medicaid Services (CMS) for compliance with Federal requirements. States
generally claim Federal funding for school-based services under the categories of administration
or medical assistance payments. The North Carolina Department of Health and Human Services,
Division of Medical Assistance administers the State’s Medicaid program.

North Carolina School-Based Services

Article 9, section 115C-106 to 115C-150 of the North Carolina General Statutes requires that all
disabled children between the ages of 3 and 20 receive a free appropriate education. Local
education agencies are responsible for furnishing special education and related services as
defined in a child’s plan/family plan.

In 1991, North Carolina requested CMS approval to add school-based health services to its State
Medicaid plan and to receive Federal funding. On September 13, 2001, CMS granted the request
with an effective date of September 25, 1995. Allowable school-based health-related services
are based on reasonable cost. During State fiscal year 2000, Medicaid costs for school-based
health-related services totaled $4,221,981 (Federal share).

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether (1) claims for school-based services were allowable
under Federal and State requirements, (2) payment rates were supported and reasonable, and
(3) the State share for claiming Federal funding was met.




                                                1
Scope

Our audit covered North Carolina Medicaid school-based services provided during State fiscal
year 2000. We limited our review of internal controls to those controls considered necessary to
achieve our objectives. Specifically, we obtained an overall understanding of State policies and
procedures through discussions with the State and local education agencies. We also obtained an
understanding of the State’s internal controls relating to the rate development process and claims
processing.

Methodology

We reviewed Federal and State laws, regulations, and guidelines pertaining to the Medicaid
program and the provision of school-based health services. We held discussions with officials
from the State, CMS, local education agencies and their consultants, and other health officials.

We requested that the State provide us a computer file containing paid fee-for-service claims.
Our analysis of this file disclosed potential anomalies such as duplicate payments and payments
that exceeded State-established parameters. These anomalies included payments for the same
services rendered to the same recipient by more than one provider on the same date, payments
for the same services rendered to the same recipient on the same date and billed under more than
one program, payments for services beyond State-established limitations, and provider billing
errors where the same service details were billed on more than one original claim.

After we brought these potential overpayments to their attention, State officials identified and
recouped $281,655. State officials also provided us with a revised paid claims universe covering
State fiscal year 2000 for 51 local education agencies. We used this paid claims universe to
randomly select a statistical sample of 200 beneficiary/months from a population of 108,805
beneficiary months. Appendix A contains our sampling methodology.

We judgmentally selected 8 of the 51 local education agencies for a documentation review to
determine if the State-share certifications for State fiscal year 2000 were correct. We verified
the local education agencies’ Medicaid receipts and the State’s matching requirement. We
selected expenditures for a detailed review to determine whether local education agencies used
allowable expenditures for the State’s match.

We performed fieldwork at the Division of Medical Assistance offices in Raleigh, NC; the 34
local education agency sites; physician offices in Mamers and Wilmington, North Carolina; and
the CMS regional office in Atlanta, Georgia. We conducted our audit in accordance with
generally accepted government auditing standards.

                          FINDINGS AND RECOMMENDATIONS

We found significant noncompliance with Federal and State requirements. Of the 200 sampled
claims, 146 did not meet reimbursement requirements. We estimated that local education



                                                2
agencies received at least $2,785,151 (Federal share) in improper payments between July 1, 1999
and June 30, 2000.

Of the 146 unallowable claims, 23 had more than 1 deficiency. The table below summarizes the
deficiencies noted and the number of claims that contained each type of deficiency. Appendix B
shows our determination on the allowability of each sampled claim.

                                                                                     Number of
                                    Type of Deficiency                               Unallowable
                                                                                      Claims1
Prescription or referral requirements not met                                           144
Services undocumented or insufficiently documented                                       13
Services not provided or did not qualify                                                  7
Services not included in child’s plan/family plan                                         3
Provider qualifications not met                                                           2

We also found the following conditions:

      •    Payment rates for school-based services were not adequately supported.

      •    The local education agencies did not always meet the requirements for State matching
           necessary to claim the Federal share of school-based services costs, primarily because of
           errors in completing the certifications. There was a shortfall of $138,803 in the
           designated State matching accounts of two local education agencies. As a result, the
           State claimed excess Federal funds for the quarters involved. However, these two local
           education agencies had additional expenditures that would have been eligible for use as
           the State’s match had the certifications been completed accurately and timely.

      •    The local education agencies were overpaid $281,655 for school-based services. The
           initial fee-for-service payment tape the State provided to us contained improper payments
           such as duplicate payments and payments for services that exceeded the State’s
           established service limitations. The State recouped the overpayment and subsequently
           provided us a new sampling universe.

DEFICIENCIES NOTED IN SAMPLED CLAIMS

The sections below discuss the five types of deficiencies noted in the sampled claims and the
criteria that we applied in determining the allowability of claims. These conditions occurred
because the State did not provide the local education agencies with sufficient guidance and
oversight to bill Medicaid appropriately for school-based health services.




1
    Total exceeds 146 because 23 claims contained more than 1 error.


                                                          3
Prescription or Referral Requirements Not Met

Federal regulations (42 CFR § 440.110) require a prescription from a physician or other
practitioner of the healing arts for physical and occupational therapy services or a physician’s
referral for services provided to individuals with speech, hearing, and language disorders.

For 144 sampled claims, the physician prescription or referral did not comply with Federal
requirements. These included 135 instances where services were rendered before the date of the
physician prescription or referral, 3 instances where no physician prescription or referral was
obtained, 3 instances where the service date(s) on the physician prescription or referral did not
correspond to those in our sample, and 3 instances where the prescription or referral was not
dated.

In some cases, services were provided a year or more before the date of the physician
prescription or referral, even though the State requires physician authorization before delivery of
services.

We also observed that physicians were authorizing school-based health services without
examining the students, reviewing their records, or coordinating services with the students’
primary care physicians. Local education agencies generally interpreted the physician
prescription or referral requirements of 42 CFR § 440.110 as mandating a signature only, with no
direct physician involvement in the services. Physicians authorized school-based health services
by signing prepared lists that included the names and services for hundreds of students.

Services Undocumented or Insufficiently Documented

Federal regulations at 42 CFR §§ 431.17 and 433.32 and an August 1997 CMS guide, “Medicaid
and School Health: A Technical Assistance Guide,” require that services claimed for Federal
Medicaid funding be documented. We identified 13 claims where the required information was
either unavailable for review or lacked sufficient documentation. These included five claims
where the Medicaid claim was missing, five claims where the provider credentials were missing,
and three claims where the assessment results were missing.

Services Not Provided or Did Not Qualify

To be allowable under Federal awards, costs must be allocable in accordance with the relative
benefits received (Office of Management and Budget (OMB) Circular A-87, Attachment A,
C.3.a). We identified seven claims where the services either were not provided or did not
qualify under the Individuals with Disabilities Education Act. Three claims were for services
when the student was designated absent from school, and three claims were for services that
were not provided. One claim was for services to a student who did not qualify under the
Individuals with Disabilities Education Act.




                                                 4
Services Not Included in Child’s Plan/Family Plan

Section 1903(c) of the Social Security Act permits Medicaid payment for school health services
that are identified in a child’s plan/family plan. Under part B of the Individuals with Disabilities
Education Act, local education agencies must prepare, for each child, a plan that specifies all
needed special education and related services.

In three of the sampled claims, local education agencies did not provide a child’s plan/family
plan.

Provider Qualifications Not Met

Federal regulations at 42 CFR § 440.110(c)(2) and the Medicaid State plan require that speech-
language providers be certified by the American Speech and Hearing Association or hold
equivalent qualifications. According to the American Speech and Hearing Association
guidelines, an individual must have successfully completed a graduate degree (masters or
doctorial) program. For two claims in our sample, the speech-language clinicians did not
possess the necessary educational requirements.

Estimation of the Unallowable Claims

On the basis of our sample, we estimate that the Federal share of overpayments for North
Carolina Medicaid school-based services was $2,785,151. This amount is the lower limit of the
90-percent confidence interval (see Appendix A).

PAYMENT RATES

Requirements relating to payment rates can be found in the Medicaid State plan at
section 4.19(h) and in 42 CFR §§ 447.201 and 447.203. Under 42 CFR § 447.201, a State plan
must describe the policy and methods to be used in setting payment rates for each type of service
included in the State’s Medicaid program. Additionally, under 42 CFR § 447.203, a Medicaid
agency must maintain documentation on payment rates and make it available to the Department
of Health and Human Services upon request.

The payment rates for school-based health services were not adequately supported. The rates
were based on a State analysis. Documentation to support the assumptions used and amounts
computed was not available. The State should maintain adequate documentation to support the
development of the rates, including all factors and assumptions used in the computations.

STATE-SHARE CERTIFICATIONS

Federal regulations at 42 CFR § 433.51 and State policy describe the requirements for State
matching necessary to claim the Federal share of school-based health service costs. Under
certain conditions, public funds, such as the non-Federal expenditures that local education



                                                 5
agencies incur, may be considered as the State’s share. Local education agencies must certify
each quarter that they have expended the required non-Federal match for Medicaid-reimbursed
services.

The local education agencies did not always meet the requirements for State matching necessary
to claim the Federal share of school-based costs, primarily because of errors in completing the
certifications. There was a shortfall of $138,803 in the designated State matching accounts of
two local education agencies. As a result, the State claimed excess Federal funds for the quarters
involved. However, these two local education agencies had additional expenditures that would
have been eligible for use as the State’s match had the certifications been completed accurately
and timely.

In addition, the eight local education agencies selected for this audit did not submit the State-
share certifications quarterly. Officials told us that certifications had not been prepared in years
and were only being prepared in response to our audit. We found that the certifications were
prepared retroactively to 1996.

We noted the following deficiencies in the certifications:

   •   One local education agency had not completed the required quarterly certifications.

   •   One local education agency prepared an annual certification instead of the required
       quarterly certifications.

   •   Four local education agencies were unable to reconcile the certified Medicaid receipts
       and their accounting records.

   •   One local education agency used the wrong fiscal year data when preparing the
       certifications.

   •   Five local education agencies used the wrong matching rate for at least 1 quarter in State
       fiscal year 2000.

   •   Two local education agencies did not meet the State-share matching requirements
       because of errors in completing the certifications.

We believe these conditions occurred because the State did not provide adequate guidance to the
local education agencies or exercise sufficient oversight of their activities.




                                                  6
OVERPAYMENTS TO LOCAL EDUCATION AGENCIES

Federal regulations require that payments be necessary, reasonable, allocable to Federal awards,
and not prohibited under State laws or regulations (OMB Circular A-87, Attachment A).

The local education agencies were overpaid $281,655 because the State did not have adequate
controls to detect duplicate payments or prevent payments for school-based services that
exceeded State service parameters. Our analysis of the initial fee-for-service payment tape that
the State provided to us contained the following improper payments to local education agencies:

       •   true duplicates – payments for the same services rendered to the same beneficiary by
           the same local education agency on the same date

       •   different providers – payments for the same services rendered to the same beneficiary
           by different providers on the same date

       •   different programs – payments for the same services rendered to the same beneficiary
           on the same date and paid under more than one Medicaid program (i.e., the local
           education agency program and the Individual Practitioner Program)

       •   service parameters exceeded – payments for services beyond the State’s established
           service limitations

       •   system errors – payments for provider billing errors

The State did not establish processing criteria that would automatically deny duplicate claims or
take action to prevent payments for services that exceeded the service parameters. The State
established “report audits” to reflect the service parameters for school-based health services, but
these audits did not affect the processing of local education agency claims. Instead, the audits
generated an exception report that the fiscal agent sent to the State for corrective action, which
the State did not take. The State identified and recouped $281,655 in improper payments after
we brought these errors to its attention.

RECOMMENDATIONS

We recommend that the State:

   •   refund $2,785,151 to the Federal Government

   •   provide guidance and oversight to local education agencies so that they meet Federal and
       State reimbursement requirements




                                                 7
   •   consult with the North Carolina Medical Board to determine whether physicians should
       examine the students, review their medical records, or coordinate their medical services
       with their primary care physicians

   •   review paid claims for periods after our review to determine whether claims were
       unallowable and, if so, refund the Federal share

   •   implement policies and procedures for maintaining documentation to support the
       Medicaid billing rates for school-based services

   •   monitor local education agencies to ensure that they timely and accurately report their
       share of State matching funds

   •   implement procedures to prevent improper payments and take more timely action on the
       exception reports that identify duplicate payments and payments for services that
       exceeded the State’s established service limitations

STATE COMMENTS AND OIG RESPONSE

State officials generally disagreed with our findings and recommendations. The State’s
comments and OIG’s response are summarized below. The State also provided specific
comments on selected claims. We have considered those comments and have revised our report
where appropriate.

State Comments on Sample Selection and Extrapolation

The State disagreed with our sampling methodology, saying that an unrestricted random sample
was inefficient and that the 34 local education agency sites we visited were not homogeneous.
They also stated that although inferences can be extrapolated to the entire State, “. . . the results
are unreasonable in that there is no way to assign dollar disallowances to the specific entities
across the state . . . .” The State suggested that the OIG’s sample should have been stratified by
local education agency so that extrapolations (disallowances) could have been made for each
agency.

OIG Response

The State’s response is without merit. Our sampling methodology was in accordance with OIG
policy, and the sample represented a valid random sample of statewide expenditures for school-
based health services.

The fact that we did not project an error for each local education agency does not invalidate our
sample. Our objective was to determine whether claims for school-based services were
allowable under Federal and State requirements. We did not sample local education agencies;
we sampled beneficiary months. During State fiscal year 2000, 51 local education agencies


                                                  8
throughout the State received Medicaid payments for school-based health services. A sample
stratified by local education agency was not realistic. Moreover, OIG was conservative by only
seeking recovery of the lower limit.

State Comments on Physician Prescriptions or Referrals

Officials said the State requires physician orders for Medicaid billing purposes only. Further,
North Carolina’s professional practice laws allow licensed practitioners of the healing arts to
self-refer, and therefore physician orders are not required for school-based physical therapy,
occupational therapy, speech pathology, or audiology services. In addition, the nature of school-
based services and State licensure requirements for professionals in allied medical disciplines,
such as speech therapy, made referrals unnecessary.

OIG Response

We agree that the State requires physician orders for Medicaid billing because physicians
authorize the delivery of Medicaid services as medically appropriate.

However, contrary to the State’s assertion, State laws for physical therapy, occupational therapy,
and speech pathology and audiology (North Carolina General Statutes, Articles 18B, 18D, and
22, respectively) do not explicitly allow these practitioners to practice without physician
prescriptions, referrals, or orders and without physician direction. In any case, 42 CFR §
440.110 requires a prescription for physical and occupational therapy services and a referral for
services to individuals with speech, hearing, or language disorders. To comply with these
regulations, the State required that a physician authorize the services.

We disagree with the State’s contention that the nature of school-based health services and the
requirements for the professionals in allied medical disciplines do not make it critical to have
physician approval. The place of service does not change the nature of the service being
provided. As such, they do not differ from the medical services provided in any other health care
setting.

State Comments on Physician Prior Authorization

The State said that it could find no authority for the use of the term “prior” in any authoritative
source and that, as a result, it was improper to retroactively require prior approvals. The State
also said that during the audit period, its rules regarding physician orders and prior authorization
for school-based services were in a state of flux. In its written comments, the State cited two
pieces of 1999 correspondence as evidence that prior authorizations were no longer required.

OIG Response

States frequently adopt prior approval requirements to serve as a control for the overutilization of
Medicaid services and to satisfy the Medicaid requirement that services be medically necessary.



                                                 9
According to information contained in a letter from the North Carolina Attorney General’s office
in response to a question concerning physician services, “Only physicians can determine medical
necessity . . . the process of obtaining a physician’s determination of medical necessity is well
within usual and customary medical practices in North Carolina . . . .”

Contrary to North Carolina’s assertion, the 1999 correspondence did not provide evidence that
prior authorizations were no longer required for school-based services. The correspondence
referred to the elimination of the requirement for the Purchase of Medical Care Services’
approval of the treatment authorization form. In a letter dated February 6, 2001, the Division of
Medical Assistance Director stated that local education agencies “. . . have always and continue
to be required to have physician orders before delivering any treatment services to Medicaid
recipients.”

State Comments on Physician Services

The State said that OIG was inserting physician referral requirements into a health care delivery
model where such requirements did not fit. According to the State, local education agencies
provide physicians with lists of students and request the physicians to approve the services in the
students’ individualized education plans. The local education agencies select physicians who
have knowledge of and/or experience with school-based health services. The State also said that
some of the physicians have worked under contract with local education agencies or with county
programs treating children with special needs.

OIG Response

Local education agencies chose some physicians who had no knowledge of either the students or
the clinicians providing school-based health services. For example, one emergency room
physician who authorized school-based health services stated that he (1) considered the services
as medical services, (2) had no knowledge of or experience with school-based health services or
the children receiving the services, and (3) never met the clinicians providing the services. The
physician neither examined the children nor reviewed the student records. While not provided
for in Federal or State regulations, we believe that at a minimum, a child’s primary care provider
should approve all school-based services for that child or should be notified to ensure that the
child’s overall health care is well coordinated.




                                                10
APPENDICES
                                                                          APPENDIX A
                                                                            Page 1 of 2

                           SAMPLING METHODOLOGY

OBJECTIVE

To determine the amount of Medicaid fee-for-service payments for school-based services
in North Carolina that did not meet the requirements of the Medicaid State plan and
applicable Federal and State regulations.

POPULATION

Our universe consisted of 108,805 beneficiary/months totaling $4,221,981 for school-
based services where the date paid was between July 1, 1999 and June 30, 2000 (State
fiscal year 2000).

SAMPLE UNIT

The sample unit was a beneficiary/month: all the services for a beneficiary for a month.

SAMPLE DESIGN

We used an unrestricted random sample.

SAMPLE SIZE

We reviewed a sample of 200 randomly selected beneficiary/months.

ESTIMATION METHODOLOGY

We used the Office of Audit Services RAT-STATS Variable Appraisal program to
project the costs of the unallowable services.
                                                                          APPENDIX A
                                                                            Page 2 of 2

RESULTS OF STATISTICAL SAMPLE

We identified overpayments in 146 of the 200 sample units. The total value of the
overpayments in the sample was $6,056 (Federal share).

We used the results of the 200 sample items to project the value of the overpayments for
the population of 108,805 beneficiary/months. The results of the projection are:


              Point Estimate of Differences:               $3,294,828

              90% Confidence Interval

                      Lower Limit:                         $2,785,151

                      Upper Limit:                         $3,804,505

                      Precision Amount:                    $ 509,677

                      Precision Percent:                       15.47%
                                                                       APPENDIX B
                                                                         Page 1 of 6

                 ALLOWABILITY OF EACH SAMPLED CLAIM


                                       Legend
             A   Claim Missing
             B   Child’s Plan/Family Plan Missing
             C   Assessment Results Missing
             D   Services Rendered Before Date of Authorization
             E   Physician Authorization Missing
             F   Physician Authorization Did Not Match Service Dates
             G   Authorization Not Dated
             H   Provider Qualifications Not Met
             I   Provider Credentials Missing
             J   Student Absent on Date of Services
             K   Services Not Provided on Date of Claim
             L   Student Not Eligible


             OIG Review Determinations on the 200 Sampled Claims
Claim                                                                      No. of
 No.     A   B    C    D     E     F     G      H   I    J      K      L   Errors
     1                                                                       0
     2                 X                                                     1
     3                 X                                                     1
     4                                                                       0
     5                 X                                                     1
     6                                                                       0
     7                                                                       0
     8                 X                                                     1
     9                 X                                                     1
    10                 X                                                     1
    11                 X                                                     1
    12                 X                                                     1
    13                                                                       0
    14                                   X                                   1
    15                                   X                      X            2
    16                                   X                                   1
    17                                                                       0
    18                                                          X            1
    19                 X                                                     1
    20                                                                       0
    21                                                                       0
    22                 X                                                     1
    23                                                                       0
    24                 X                                                     1
                                                     APPENDIX B
                                                       Page 2 of 6

Claim                                                    No. of
 No.     A   B   C   D   E   F   G   H   I   J   K   L   Errors
    25               X                                     1
    26               X                                     1
    27                                                     0
    28   X           X                                     2
    29   X           X                                     2
    30   X           X                                     2
    31   X           X                                     2
    32   X           X                                     2
    33               X                                     1
    34               X                                     1
    35                       X       X                     2
    36               X                                     1
    37       X                                             1
    38                                                     0
    39                                                     0
    40                                                     0
    41                                                     0
    42               X                                     1
    43               X                       X             2
    44               X                                     1
    45               X                                     1
    46               X                   X                 2
    47               X                                     1
    48               X                                     1
    49               X                                     1
    50               X                                     1
    51               X                                     1
    52               X                                     1
    53               X                                     1
    54               X                                     1
    55               X                                     1
    56               X                       X             2
    57               X                                     1
    58               X                                     1
    59                                                     0
    60               X                                     1
    61                                                     0
    62               X                                     1
    63               X                                     1
    64                                                     0
    65               X                                     1
    66               X                       X             2
                                                     APPENDIX B
                                                       Page 3 of 6

Claim                                                    No. of
 No.     A   B   C   D   E   F   G   H   I   J   K   L   Errors
    67               X                                     1
    68               X                                     1
    69               X                                     1
    70               X                                     1
    71               X                                     1
    72                                                     0
    73                                                     0
    74                                                     0
    75                                                     0
    76               X                                     1
    77               X                                     1
    78               X                                     1
    79               X                                     1
    80               X                                     1
    81               X                                     1
    82                                                     0
    83                                                     0
    84                                                     0
    85               X                                     1
    86               X                                     1
    87               X                                     1
    88               X                                     1
    89               X                                     1
    90               X                   X                 2
    91               X                                     1
    92               X                                     1
    93               X                                     1
    94                   X                                 1
    95                                                     0
    96                                   X                 1
    97               X                                     1
    98               X                                     1
    99               X                                     1
   100               X                                     1
   101               X                                     1
   102                                                     0
   103               X                                     1
   104           X   X                                     2
   105               X                                     1
   106               X                                     1
   107               X                                     1
   108               X                                     1
                                                     APPENDIX B
                                                       Page 4 of 6

Claim                                                    No. of
 No.     A   B   C   D   E   F   G   H   I   J   K   L   Errors
   109               X                                     1
   110               X                                     1
   111               X                                     1
   112       X       X                                     2
   113               X                                     1
   114                                                     0
   115               X                                     1
   116               X                                     1
   117               X                   X                 2
   118                                                     0
   119                   X                           X     2
   120                                                     0
   121               X                                     1
   122                                   X                 1
   123               X                                     1
   124               X                                     1
   125           X   X                                     2
   126               X                                     1
   127                                                     0
   128               X                                     1
   129               X   X                                 2
   130                                                     0
   131               X                                     1
   132               X                                     1
   133                                                     0
   134                                                     0
   135                                                     0
   136               X                                     1
   137               X                                     1
   138               X               X                     2
   139                                                     0
   140                                                     0
   141               X                                     1
   142               X                                     1
   143                                                     0
   144               X                           X         2
   145                                                     0
   146               X                                     1
   147           X   X                                     2
   148               X                                     1
   149               X                                     1
   150                                                     0
                                                     APPENDIX B
                                                       Page 5 of 6

Claim                                                    No. of
 No.     A   B   C   D   E   F   G   H   I   J   K   L   Errors
   151                                                     0
   152               X                                     1
   153               X                                     1
   154               X                                     1
   155               X                                     1
   156               X                                     1
   157               X                                     1
   158               X                                     1
   159               X                                     1
   160               X                                     1
   161                                                     0
   162                                                     0
   163                                                     0
   164                                                     0
   165               X                                     1
   166       X       X                                     2
   167                                                     0
   168                                                     0
   169               X       X                             2
   170               X                                     1
   171                                                     0
   172                                                     0
   173                       X                             1
   174                                                     0
   175               X                                     1
   176               X                                     1
   177               X                                     1
   178                                                     0
   179                                                     0
   180                                                     0
   181               X                                     1
   182               X                                     1
   183               X                                     1
   184               X                                     1
   185               X                                     1
   186                                                     0
   187               X                                     1
   188               X                                     1
   189               X                                     1
   190               X                                     1
   191               X                                     1
   192               X                                     1
                                                             APPENDIX B
                                                               Page 6 of 6

Claim                                                            No. of
 No.     A   B   C   D   E   F   G   H   I       J   K   L       Errors
   193                                                             0
   194              X                                              1
   195              X                                              1
   196              X                                              1
   197              X                                              1
   198              X                                              1
   199              X                                              1
   200              X                                              1
 Total   5   3   3 135   3   3   3   2       5   3   3   1
